<html>
<title> - SEMIANNUAL COMMITTEE ACTIVITY REPORT AND FOREIGN RELATIONS AUTHORIZATION ACT, FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                SEMIANNUAL COMMITTEE ACTIVITY REPORT AND
                  FOREIGN RELATIONS AUTHORIZATION ACT,
                            FISCAL YEAR 2013

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 6018

                               __________

                             JUNE 27, 2012

                               __________

                           Serial No. 112-176

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
74-862                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

Semiannual Committee Activity Report.............................     2
H.R. 6018, Foreign Relations Authorization Act, Fiscal Year 2013.    26

                                APPENDIX

Markup notice....................................................   108
Markup minutes...................................................   109
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   111


      SEMIANNUAL COMMITTEE ACTIVITY REPORT AND FOREIGN RELATIONS 
                  AUTHORIZATION ACT, FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, JUNE 27, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    There are nine markups going on, none as interesting as 
this one, so stay around. We are going to go through it 
quickly.
    Pursuant to notice, the committee meets today to approve 
our semiannual activities report and to mark up the Foreign 
Relations Authorization Act for Fiscal Year 2013.
    According to the expedited procedures I shared with all 
members yesterday, we will consider and approve these consensus 
measures at the outset. Afterwards, I will recognize myself, my 
good friend, the ranking member, Mr. Berman, and any member 
wishing recognition for remarks.
    Without objection, all members may have 5 days to insert 
written remarks into the record on any of today's business.
    The committee will now consider our Semiannual Legislative 
Review and Oversight Activities Report as required by House 
Rule XI.
    Without objection, the June 2012 report text that members 
have in front of them, which was provided in draft form from 
last Wednesday and posted online earlier this week, is 
considered read.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. The Chair moves that the report be 
adopted by the committee.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
report is approved.
    We now consider the Foreign Relations Authorization bill, 
which was provided to your office, as I said, in draft form 
last week and in final form Monday morning. The clerk will 
report the bill.
    Ms. Carroll. H.R. 6018, to authorize appropriations for the 
Department of State for Fiscal Year 2013, and for other 
purposes.
    Chairman Ros-Lehtinen. Without objection, the bill is 
considered read and open for amendment at any point.
    [H.R. 6018 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Hearing no amendments and reporting 
a quorum being present, the Chair moves that the committee 
approve H.R. 6018 as introduced.
    All those in favor, say aye. Aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it; and the bill 
is agreed to.
    Without objection, the bill is ordered favorably reported. 
Staff is directed to make technical and conforming changes, and 
the Chair is authorized to seek consideration under suspension 
of the rules.
    Members with competing committee assignments, of which 
there are many this morning, will be pleased to know that we 
have now concluded the operative portion of today's business. I 
will now recognize members who wish to make statements on 
today's bill, beginning with myself and the ranking member.
    I want to thank the ranking member and all members on both 
sides of the aisle for their cooperation in this bipartisan 
effort to draft and adopt a State Department authorization bill 
for Fiscal Year 2013. H.R. 6018 is a carefully crafted bill, 
focusing on the basic funding and operational authorities on 
which we have been able to reach bipartisan agreement.
    Despite significant efforts by this committee, the 
Department of State has not been authorized for nearly a 
decade. The last authorization bill to become law, coauthored 
by our esteemed former chairmen Henry Hyde and Tom Lantos, 
whose portraits grace us now, was enacted in September 2002.
    The lack of authorities in the intervening years has eroded 
our foreign policy leverage with our primary agency of 
jurisdiction, the Department of State. By adopting this bill 
this morning, the committee strengthens its role in exercising 
effective oversight of the Department of State and fulfills our 
obligation to the American public.
    The text authorizes basic funding for the State Department, 
the Broadcasting Board of Governors, and the Peace Corps at 
fiscally responsible levels coordinated with the Appropriations 
Committee. Most accounts are authorized at the bipartisan 
levels from Fiscal Year 2012 from that omnibus bill.
    H.R. 6018 also includes management reforms to increase the 
efficiency, accountability, and safety of our personnel 
overseas. It establishes important jurisdiction and oversight 
authorities in the expanding fields of cybersecurity, 
counterterrorism, communications, and arms export controls. It 
helps American businesses by modifying the arms export control 
authorities to reduce obstacles and streamline the process for 
exporting selected equipment and parts. At the same time, it 
enhances U.S. security by increasing safeguards against the 
transfer of U.S. technologies to state sponsors of terrorism 
and countries subject to U.S. arms embargoes.
    For all of these reasons, H.R. 6018 deserves the bipartisan 
support that it received this morning. I am confident that the 
strong signal sent by today's committee action will lead to 
prompt consideration by the full House and, ultimately, the 
enactment of these basic authorities into law.
    I again want to thank the ranking member and, indeed, all 
of our members for their assistance and cooperation; and I am 
now pleased to recognize----
    Mr. Rohrabacher. Madam Chairman?
    Chairman Ros-Lehtinen. Yes, Mr. Rohrabacher?
    Mr. Rohrabacher. Congratulations. Thank you.
    Chairman Ros-Lehtinen. Thank you, sir. We will always 
recognize you for that.
    I am now so pleased to recognize my friend, the ranking 
member, for his remarks on the legislation.
    Mr. Berman. Thank you very much, Madam Chairman. If this is 
the most interesting of the nine markups, I would hate to see 
the most boring.
    Madam Chairman, I want to start out by thanking you and 
your staff, especially Yleem Poblete and Doug Anderson, for 
working closely with us to ensure that this markup produces a 
consensus bill.
    The State Department authorization bill is one of the most 
fundamental legislative responsibilities of this committee and 
provides the basis for our Embassies to function and our 
diplomats to promote U.S. national interests around the world.
    Our national security rests on three pillars: Diplomacy, 
development, and defense. Every year the Armed Services 
Committee manages to report its bill providing authorities and 
resources for the Pentagon. The longer we go without providing 
the authority and resources our State Department needs to 
promote international cooperation, the greater the temptation 
for other committees and other departments to step in.
    With this bill, the committee is once again asserting at 
least some jurisdiction over the funding and operations of the 
State Department. This is an opportunity for us to demonstrate 
the capacity to work together to get things done and to promote 
our national interests.
    I hope we can all agree that the military ought to be our 
last line of defense, the option to which we resort after all 
other avenues have been closed off. Yet, by ignoring and 
shortchanging our diplomats, we only increase the likelihood of 
an armed confrontation. Whether in Afghanistan, where a 
strengthened diplomatic presence is needed to enable a military 
withdrawal, or in the Sahel, where terrorist groups are making 
new gains, our Foreign Service Officers are at the front lines 
of protecting U.S. national security. This bill gives them the 
tools they need to be successful. We owe the brave men and 
women who put their lives on the line, military and civilian 
alike, no less.
    That said, this is by no means a perfect or comprehensive 
bill. It contains certain provisions I would prefer to see 
removed. It leaves out a long list of provisions I would like 
to see added. By and large, the numbers are well below Fiscal 
Year 2013 request levels, and lower than what I think is proper 
to exert strong and effective international leadership. But the 
chairman has worked with us over the past weeks to make the 
changes necessary to arrive at a text that has the best shot of 
moving forward.
    This bill contains no funding for foreign assistance 
programs, nor does it include any proposals for foreign aid 
reform. Those topics should also be high priorities for this 
committee, and I look forward to working with the chairman on 
provisions to address how our foreign aid dollars are spent. 
Accounting for just 1 percent of the overall budget, foreign 
assistance is a small but wise investment in a better, safer 
world. Our job is to ensure that it is spent in the most 
efficient and effective way.
    The bill also does not contain any country-specific 
provisions or any findings or sense of Congress language. While 
I note that all of us have pressing things we would want to say 
about U.S. policy toward a wide range of countries and 
problems, I respect the chairman's view that progress on 
asserting our jurisdiction is paramount and that there will be 
other business meetings and other markups where those kinds of 
proposals can be considered on their merits. If we want our 
committee to be taken seriously so that our jurisdiction is 
protected and our views carry weight with other committees, 
then we need to report legislation, at the very least, that can 
be passed by the full House.
    Let me describe a few of the bill's key provisions in 
greater detail.
    It includes a number of provisions to better protect our 
men and women serving abroad as well as their families. It 
allows the State Department to award local guard contracts in 
high-risk areas on the basis of best value rather than on who 
had the lowest bid. In the past, lowest bids had sometimes 
resulted in poorly trained security forces that endangered the 
safety of our diplomats and development experts. This bill also 
better protects the children of U.S. employees who attend 
school overseas by improving the physical security at these 
locations.
    More importantly, by allowing the Secretary to transfer 
authorities to the recently created Counterterrorism, Conflict 
and Stabilization Operations, and Energy Resources Bureaus, 
this act reflects the organizational changes that have taken 
place at the Department as a result of what I hope will be the 
first of regular Quadrennial Diplomacy and Development Reviews.
    The bill also incorporates most of H.R. 3288, the 
Safeguarding U.S. Satellite Leadership and Security Act. It was 
also adopted as an amendment to the National Defense 
Authorization Act. This bipartisan provision would help restore 
America's global competitiveness in high-tech satellite 
technology and protect vital U.S. national security interests.
    Madam Chairman, you and your staff have produced a good and 
fair piece of legislation. Equally important, you have taken 
our views into account. I would urge my colleagues to do what 
they have already done, and that is to approve this legislation 
not only on its merits, but also as an expression of support 
for enhancing comity and bipartisanship in our committee.
    I thank the chair, and you might not believe it, but this 
is actually a shorter statement than I was planning on giving, 
and I will yield back the balance of my time.
    Chairman Ros-Lehtinen. I thank my good friend, Mr. Berman, 
for that opening statement; and I am pleased to yield 5 minutes 
to Mr. Royce of California.
    Mr. Royce. Thank you, Madam Chairman; and I would also like 
to thank you, I would like to thank Ranking Member Berman for 
the support of a provision that I inserted in this legislation 
to expand the authority of the State Department to go after 
those who commit crimes against humanity, such as Joseph Kony.
    As you know, the existing State Department's rewards 
program has largely focused recently on terrorists. They focus 
on drug traffickers. We had a hearing, Madam Chair, where we 
heard the results of some of that effect of the rewards program 
where those who were involved in trafficking, for example, when 
captured would say there was nobody they could turn to; they 
felt like a wanted man. Well, that is exactly the type of 
emotion we are trying to engender here, and this program does 
this. The provisions in the bill now would expand the program, 
and it would also target something else we want to affect, and 
that is transnational organized crime. There will be a rewards 
program to induce people to come forward.
    And lastly, and I think very importantly, those who are 
wanted for the most serious human rights abuses--and this 
responds to two things. One, the growing ties between 
terrorists and transnational criminals. We target those who 
assist terrorists and those who assist the drug cartels with 
weapons, those involved in weapons trafficking, those involved 
in sophisticated forgeries, money laundering; and, importantly, 
then this legislation will also allow the rewards program to 
target those wanted for genocide, for war crimes, crimes 
against humanity. These are the world's worst human rights 
abusers that we are trying to focus on.
    A target of this, of course, will be Joseph Kony and the 
top commanders of the Lord's Resistance Army. This group has 
terrorized northern Uganda as well as Central Africa now for 
two decades. The crimes that they commit there are unspeakable; 
and, in accordance with U.S. policy, a small team of U.S. 
troops are currently in the field helping local forces hunt for 
these killers.
    Our U.S. troops have indicated to us that they believe that 
a rewards program would help them if it is aimed at Kony. It 
will help them generate intelligence. It will bolster their 
efforts. They are asking for this provision. They think this 
can make a difference for them on the ground, and let's answer 
their call.
    Thank you, Madam Chair, for including this; and we look 
forward to trying to speed this legislation along to the 
Senate.
    Chairman Ros-Lehtinen. We sure do. Thank you, Mr. Royce.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    I know that I speak for myself and certainly my friend, Mr. 
Chandler from Kentucky, when I say mirabile dictu, wondrous to 
relate, having a markup this smooth, this uncomplicated, 
lacking in controversial policy riders, bringing us together on 
a bipartisan basis. I think you and your staff and Mr. Berman, 
the ranking member, and his staff are to be commended for 
bringing us together.
    I look forward to supporting this. There are many 
provisions in here, particularly those involving commercial 
satellite technology, that I think are a big improvement over 
existing policy; and I hope--I applaud Mr. Berman in 
introducing the legislation and you in adopting it as an 
amendment.
    And, of course, I also associate myself with the remarks of 
our friend from California, Mr. Royce, in other provisions that 
I think are going to make a difference in human rights and 
getting finally Joseph Kony brought to justice.
    So thank you, Madam Chairman, and thank you to your 
respective staffs for your leadership and the ranking member as 
well.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Chandler is recognized.
    Mr. Chandler. Madam Chairwoman, since I was referred to in 
my colleague's remarks, I just want to thank my Irish friend 
for his Latin eloquence.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Madam Chair, I didn't realize I was going 
to come this quickly.
    I thank you, Madam Chair, and certainly our ranking member 
for the spirit of bipartisanship and working so hard in putting 
this authorization bill together. Madam Chair, I certainly want 
to commend both you and our ranking member, Mr. Berman, for 
doing this; and I am sure that my colleagues on this side of 
the aisle are very happy that we have come to a very good 
conclusion in reaching an agreement on how we can pass this 
legislation as soon as we can.
    With that, I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Hearing no further requests for recognition, I want to 
thank again all of our colleagues on both sides of the aisle 
for the hard work and cooperation that went into today's 
meeting; and, with that, the committee stands adjourned.
    [Whereupon, at 10:21 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
